                                CLOSEOUT FOR M-95110043
        On 12November 1995, OIG received a letter fiom the complainant1 in which he alleged
that, because he and his co-workers were members of a rninoity goup2, NSF had discriminated
against them in the review and subsequent declination of his proposal.3 The complainant also
alleged that the program's proposal processing and review of his proposal was a "sham review"
because it 1)used ad hoc reviewers that were not competent to review his proposal, 2) included ad
hoc reviewers that were part of a ''good old boys circle," that supported its own members' work
"keep[ing] out new players," at least one of which had a conflict of interest with his proposed
project, as evidenced by his remarks in his review about his own similar research projects, and 3)
was not reviewed as part of the same competition as the origmal proposal would have been, which
meant there were no funds available. Finally, the complainant alleged that NSF's reconsideration
process had been "mishandled" because it had not addressed his concerns adequately and
completely.

        The complainant explained that, after he submitted his proposal, he received no response
fiom NSF for two months. When he contacted NSF to learn what had happened to his proposal
he said that he was told that NSF officials improperly disposed of his proposal. The program
invited him to resubmit a copy of the proposal, which he did.

        The complainant's resubmitted proposal was reviewed by five ad hoc reviewers and
received three poor and two fhir ratings. The proposal was declined. The program officer told
OIG that, if the proposal had been reviewed positively, he would have found the funds necessary
to fund it even though it was reviewed separately fiom the original competition. The complainant
requested a reconsideration by the Assistant Director C AD).^ After the complainant received no
response fiom NSF for two months about his request for a reconsideration, he contacted NSF. He
said that he was told that the AD, to whom he had sent the request, was on administrative leave.
OIG learned that the complainant's request, that had been addressed to the AD on administratiye
leave, had been forwarded directly to him by NSF, and he had "assumed (wrongly) that the letter
had been seen at NSF,"and he did nothing. The complainant's request for a reconsideration was
sent to the new AD.' The new AD'S reconsideration upheld the program's declination decision. It


 The con




 personnel in the proposal, [
 sketch for each was includec

                      vas the AD from the Directora
                      s the new AD firom the Directoi


                                               Page 1 of 3                               M 95-43
                               CLOSEOUT FOR M-95110043

determined that the processing, review, and evaluation of the complainant's proposal was done
properly and that the selected reviewers were competent to review the proposal.

       The complainant requested a reconsideration by the Deputy Director (DD).~The DD's
reconsideration determined that the complainant's proposal had been evaluated properly and fairly
in accordance with NSF's policies and procedures. The DD upheld the original declination of the
proposal. She acknowledged that NSF's administrative handling of his proposal was well below
NSF's usual standards. She also explained that NSF could not explain the loss of the
complainant's original proposal and that, although it was possible that the complainant's proposal
never reached NSF, nevertheless, NSF would assume the responsibility for its loss. In addition,
she acknowledged and apologmd for the confhsion the complainant encountered when he
attempted to learn about the status of his original proposal, but explained that once the staff had
become aware of the matter, it took appropriate action. She also apologmd for problems
associated with his initial q u e s t for a reconsideration.'

        OIG learned that the NSF Proposal Processing Group (PPG) had no record of the
complainant's original proposal. We were told that proposals received by PPG are assigned
numbem, except those that exceed the page limitation without a written waiver, or that do not
identi@ the NSF program. The complainant's proposal did not fkll into either category. Even
when a number is not assigned to a proposal by PPG, we were told that the NSF program is
notified before a proposal is rejected for length or lack of program information. If a proposal is
rejected, we were told that the applicant is notified by PPG. As it was explained to OIG, the only
way a proposal could bypass PPG would be if the applicant addressed the proposal directly to the
NSF program. When this happens, the NSF program is expected to send the proposal to PPG for
log-in. The NSF program officers and administrators did not remember receiving the
complainant's original proposal. OIG could find no evidence that the complainant's original
proposal ever atrived at NSF.

        OIG examined the complainant's concern that the reviewers were part of an "old boys
circle" and that at least one of the reviewer's remarks suggested'that he had a conflict of interest
(COI) with the complainant because the reviewer was actively involved in the same research. OIG
determined that the reviewer in question had extensive experience with work being performed by
many scientists in the area represented by the complainant's proposal and that his remarks were the
natural result of his experience. OIG also determined that there was no evidence of a COI
between any of the reviewers and either the complainant or the three key personnel listed in his

 The NSF Deputy Director
                                               to Program Announcement NSF    b-(
                                        the specific competition to which the complainant had submitted his
 proposal.   The complainant actually rmbmitted his proposal un

                                                                             on the DD's conclusions. The
                                                                             n this case and, even if it had
  been, the program referred ti by the DD supports similar research to that presented in the complainant's
  proposal.


                                              Page 2 of 3                                         M   95-43
                             CLOSEOUT FOR M-95110043

proposal. Further, OIG determined that there was no evidence that the reviewers were in any way
involved in a group effort to deny new PIS fiom receiving support. The reviewers were drawn
fiom small businesses and universities. We were informed that the NSF program was interested in
supporting new PIS, especially those with institutional afiiliations such as the complainant's.
There is no substance to the allegation that any of the ad hoe reviewers had a COI with the
complainant, or that there was any group effort to decline the subject's proposal.

        The complainant alleged that discrimination was a factor in the declination of his proposal.
One of these program officers pointed out that the program officers in the Division to which the
complainant submitted his proposal were members of several dierent minority groups. Several
program officers who handled the complainant's proposal explained that, until the complainant
told them what his minority status was, they had not noticed. OIG's review of the documents
could find no substance to the complainant's allegations that discrimination contributed in any
way to the processing or declination of his proposal.

       This case is closed, and no further action will be taken.

cc: S t .Scientist, Attorney,AIG Oversight, IG




                                           Page 3 of 3
